9/8/2021

Addendum_to_the_Standard_Credit_Agreement 2Q 2021.html

Addendum to the Cardmember Agreement
This Addendum to the Cardmember Agreement reflects variations to our standard form credit card agreement in effect on the last business day of
the previous calendar quarter that ended on 6/30/2021. Our standard Cardmember Agreement(s) is supplemented with pricing information
reflected in the document(s) titled “Pricing Supplement” and other terms and/or features that may vary between the different types of credit card
accounts that we offer as reflected in the below “Addendum to the Cardmember Agreement”. These documents are provided to you for
informational purposes only. These account terms may not be available after the above date. If you apply and are approved for a credit card
account with us, your actual account terms will be based on the terms of the offer available at the time that you applied and your Cardmember
Agreement will be the agreement sent to you when your account is first opened.
The following provision is to be added at the end of the last sentence of the “Credit Line/Authorized Usage” paragraph in our standard Cardmember
Agreement and is applicable to credit card accounts that do not have a preset spending limit:
“Because your Account has no pre-set spending limit, we may permit you from time to time at our discretion to make certain charges that cause your
outstanding balance to exceed your revolving credit line. These charges will be evaluated based on account performance, other credit accounts with us, and
your experience with other creditors. If we authorize these charges, you must pay, with your Minimum Payment Due, the amount by which your balance
exceeds your revolving credit line, including amounts due to Purchases, Cash Advances, Interest charges, Fees, or other charges.”
The provisions describing how we calculate your balance subject to interest rate each month, accrual of interest and how to avoid paying interest on
purchases may vary based on the account type that the applicant applied for and whether the applicant is a resident of Iowa. The following two options
contain the various provisions that could apply, and one of these options will be reflected in the Cardmember Agreement assigned at account opening:
OPTION 1:
How We Will Calculate Interest.
We use a method called “daily balance (including new purchases)”. We calculate interest separately for each “Balance Subject to Interest Rate”. These
include for example, Purchases at the current rate, Balance Transfers at the current rate, Cash Advances at the current rate, and different promotional
balances. Your monthly billing statement shows each “Balance Subject to Interest Rate”.
To calculate interest, we first calculate a daily balance for each Balance Subject to Interest Rate. We start with the balance, for that Balance Subject to
Interest Rate, as of the end of the previous day. We add any interest calculated on the previous day’s balance. (This means interest is compounded daily).
We add any new Purchases, Balance Transfers, or Cash Advances to the appropriate balance, subtract any new payments or credits from the appropriate
balance, and make other adjustments. A credit balance is treated as a balance of zero. We then multiply each daily balance by the applicable DPR. We do
this for each day in the billing period. That gives us the daily interest. We add up all the daily interest for all of the daily balances to get the total interest for the
billing period.
Accrual of Interest and How to Avoid Paying Interest on Purchases.
On Purchases, interest begins to accrue as of the transaction date. However, you can avoid paying interest on Purchases in any given billing cycle if you pay
your Statement Balance in full by the Payment Due Date. For Balance Transfers, interest will accrue from the transaction date which generally will be the day
we send the Balance Transfer to the payee. For Checks, interest will accrue from the transaction date which generally will be the day the payee accepts the
Check. For Cash Advances, interest will accrue from the transaction date which generally will be the day you take the Cash Advance. If you are charged
interest in a billing cycle, we will charge a Minimum Interest Charge (or “Minimum Charge”) on your Account if the total interest charge in that billing cycle is
less than the amount of the Minimum Interest Charge.
If you have a promotional APR offer(s) on your Account, you can avoid paying interest on non-promtional Purchases if you pay, by the Payment Due Date,
the amount that equals your Easy Pay Payment Amount(s) plus your Statement Balance, minus any promotional Balance Transfer balance or special
category Purchase (such as an Easy Pay Balance) with a reduced APR, and minus any Deferred Financing Purchase during all but the last billing period of
file:///C:/Users/SampathP/AppData/Local/Microsoft/Windows/INetCache/Content.Outlook/78GSH1FU/Addendum_to_the_Standard_Credit_Agreement 2Q 2021.html

1/2

9/8/2021

Addendum_to_the_Standard_Credit_Agreement 2Q 2021.html

the promotional period. If one or more of the balances on your Account is subject to one of these promotional APR offers, this will be more fully explained on
your monthly Statement.
OPTION 2:
How We Will Calculate Your Balance Subject to Interest Rate (For Residents of Iowa at the Time of Account Opening).
We use a method called “average daily balance (including new purchases)”. To determine the amount of the interest to be charged on your Account we first
calculate the “Balance Subject to Interest Rate” separately for Purchases, for Balance Transfers, and for Cash Advances. We apply the applicable Monthly
Periodic Rate to the average daily balances of i) Purchases, ii) Balance Transfers, and iii) Cash Advances. The average daily balances for Purchases, for
Balance Transfers, and for Cash Advances are calculated separately and determined as follows: We take the beginning balances for each balance category
on your Account each day, add to the respective balances any new transaction, subtract any payments or credits and make any other applicable
adjustment(s). A credit balance is treated as a balance of zero. Then we take the sum of all daily balances and divide by the number of days in the billing
period to determine the average daily balance. If you multiply the “Balance Subject to Interest Rate” for each balance category as disclosed on your monthly
billing statement by the applicable MPRs, the results will be the interest assessed, except for minor variations caused by rounding. We may from time to time
offer you “introductory,” “special” or “promotional” APR offers. If any are in effect on your Account, we will separately identify the balances to which such offers
apply on your monthly billing statement. These separate balances and the related interest will be calculated in the same manner as described above.
Accrual of Interest and How to Avoid Paying Interest on Purchases.
On Purchases, interest begins to accrue as of the transaction date. However, you can avoid paying interest on Purchases in any given billing cycle if you pay
your Statement Balance in full by the Payment Due Date each month. For Balance Transfers, interest will accrue from the transaction date which generally
will be the day we send the Balance Transfer to the payee. For Checks, interest will accrue from the transaction date which generally will be the day the
payee accepts the Check. For Cash Advances, interest will accrue from the transaction date which generally will be the day you take the Cash Advance. If
you are charged interest in a billing cycle, we will charge a Minimum Interest Charge (or “Minimum Charge”) on your Account if the total interest charge in that
billing cycle is less than the amount of the Minimum Interest Charge that is disclosed in the Account Summary Table.
If you have a promotional APR offer(s) on your Account, you can avoid paying interest on non-promotional Purchases if you pay, by the Payment Due Date,
the amount that equals your Easy Pay Payment Amount(s) plus your Statement Balance, minus any promotional Balance Transfer balance or special
category Purchase (such as an Easy Pay Balance) with a reduced APR, and minus any Deferred Financing Purchase during all but the last billing period of
the promotional period. If one or more of the balances on your Account is subject to one of these promotional APR offers, this will be more fully explained on
your monthly Statement.

file:///C:/Users/SampathP/AppData/Local/Microsoft/Windows/INetCache/Content.Outlook/78GSH1FU/Addendum_to_the_Standard_Credit_Agreement 2Q 2021.html

2/2

